                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General



                                                                     JUN 23 2011

The Honorable Edward Drusina, U.S. Commissioner
International Boundary and Water Commission
United States and Mexico, U.S. Section
4171 North Mesa Street, Suite C-I 00
El Paso, TX 79902- 1441

Dear Commissioner Drusina:

Enclosed for your review and action is a copy of the report Audit ofInternational Boundary and
Water Commission Construction Contract With Ballenger Construction Company Using Funds
Provided by the American Recovery and Reinvestment Act (AUD/CG-II-19). Based on your
response, the Office of Inspector General considers Recommendation 3 closed upon issuance of
this report. However, please provide your response to the report and information on actions
taken or planned for Recommendations I, 2, and 4 within 30 days of the date of this letter.
Actions taken or planned are subject to followup and reporting in accordance with the enclosed
compliance response information.

The Office ofTnspector General (OIG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix B.

orG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284­
2601 or by email at astorr@state.gov.

Sincerely,


~u-~~                                  :> 

Harold W. Geisel 

Deputy Inspector General 


Enclosures: As stated.

cc: lBWC _ (b) (6) _
    lBWC 
 (b) (6)
    WI 
           (b) (6)
    AlLMlAQM -
 (b) (6)
    RMlBP 
 (b) (6)
                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                Audit of International Boundary and Water

                                 Commission Construction Contract With

                               Ballenger Construction Company Using Funds

                                  Provided by the American Recovery and

                                             Reinvestment Act


                                              Report Number AUD/CG-11-19, June 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the 

                               Broadcasting Board of Governors, or any agency or organization receiving a copy 

                               directly from the Office of Inspector General. No secondary distribution may be

                               made, in whole or in part, outside the Department of State or the Broadcasting Board

                               of Governors, by them or by other agencies of organizations, without prior

                               authorization by the Inspector General. Public availability of the document will be

                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper 

                               disclosure of this report may result in criminal, civil, or administrative penalties.




                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of I 980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission's (lBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton ' s report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        0 10 evaluated the nature, extent, and timing of Colton ' s work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate . OIG concurs with Colton's findings , and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efticient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.


                                   ../)a<:=< ) 

                                       Harold W. Geisel 

                                       Deputy Inspector General 

                                       UNCLASSIFIED





Audit of International Boundary and Water Commission Construction Contract With
Ballenger Construction Company Using Funds Provided by the
American Recovery and Reinvestment Act


Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Ballenger
Construction Company using funds provided by the American Recovery and Reinvestment Act
of 2009 (Recovery Act). We evaluated Ballenger’s compliance with relevant Federal laws and
regulations, including those of the Recovery Act; adequacy of processes and systems in place to
collect information required to be reported by the Recovery Act; and accuracy and completeness
of required report submissions. This performance audit, performed under Contract No. S-AQM-
PD-04-D0035, was designed to meet the objective identified in the section titled “Objective” and
further defined in Appendix A, “Scope and Methodology,” in this report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


Cotton & Company, LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
June 2011

                                       UNCLASSIFIED

                                     UNCLASSIFIED





ACRONYMS

Department     Department of State
FAR            Federal Acquisition Regulation
IBWC           International Boundary and Water Commission
OIG            Office of Inspector General
OMB            Office of Management and Budget
Recovery Act   American Recovery and Reinvestment Act of 2009




                                     UNCLASSIFIED

                                    UNCLASSIFIED



                                  TABLE OF CONTENTS


Section                                                                         Page
Executive Summary                                                                   1
Background                                                                          1
Objective                                                                           2
Results of Audit                                                                    2
  Finding A. Contractor Did Not Comply With All Contract Terms and Conditions       2

  Finding B. Subcontractor Payment Process Was Ineffective                          4

  Finding C. Buy American Act Controls Were Not in Place                            5

  Finding D. Recovery Act Reporting Was Inaccurate and Incomplete                   6


List of Recommendations                                                             8
Appendices
A Scope and Methodology                                                             9

B International Boundary and Water Commission Response                             11





                                    UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this report), to conduct performance audits of
contractors that received funding provided by the American Recovery and Reinvestment Act of
2009 (Recovery Act) from the International Boundary and Water Commission (IBWC). The
audit objective was to determine whether contractors that received Recovery Act funds from
IBWC complied with relevant Federal laws and regulations, including those of the Recovery
Act; had adequate processes and systems in place to collect information required to be reported
by the Recovery Act; and submitted required reports that were accurate and complete. One
contractor selected for review was Ballenger Construction Company.

       Ballenger was awarded a contract on October 19, 2009, to furnish all labor, materials, and
equipment for construction of improvements on North Floodway 1 and the Arroyo Colorado 1
and Optional Arroyo Colorado 2 Floodways in the amount of $20,988,112.28. Ballenger
invoiced and was paid $3,852,580.72 for work performed through September 30, 2010.

        Ballenger did not comply with all relevant Federal laws and regulations, including those
of the Recovery Act; did not have adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and did not provide complete and accurate
information as required by the Recovery Act. Specifically, it did not comply with all contract
terms and conditions, did not have proper controls over subcontractor payments, did not
implement Buy American Act controls, and did not submit accurate and complete Recovery Act
reports.

                                         Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Pre-construction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.
                                                  1

                                       UNCLASSIFIED
                                                UNCLASSIFIED


       IBWC awarded Contract No. IBM10C0002 for $20,988,112.28 to Ballenger on October
19, 2009. The contract was to furnish all labor, materials, and equipment for the construction of
improvements on North Floodway 1 and Arroyo Colorado 1 and Optional Arroyo Colorado 2
Floodways located in Hidalgo and Cameron Counties, Texas. Ballenger invoiced and was paid
$3,852,580.72 for work performed through September 30, 2010. As of April 23, 2010, there was
one modification, which adjusted the contract value to $19,643,481.00. The Notice to Proceed
was issued on December 9, 2009, with a performance period of 330 calendar days.

                                                   Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems to collect information required to be reported
by the Recovery Act; and submitted required reports that are accurate and complete.

                                               Results of Audit
       The contractor Ballenger did not comply with all construction contract terms and
conditions or relevant Federal laws and regulations, including those of the Recovery Act; did not
have adequate processes and systems to collect information required to be reported by the
Recovery Act; and did not provide information in Recovery Act reports that was accurate and
complete.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions

        The contractor Ballenger and its subcontractors did not comply with all terms and
conditions of Ballenger’s Recovery Act construction contract. It did not enroll as a Federal
contractor in E-Verify at the time of contract award, as required by the Federal Acquisition
Regulation (FAR).1 Specifically, the FAR requires Federal contractors to enroll “as a Federal
Contractor in the E-Verify program within 30 calendar days” of contract award. Ballenger also
did not verify that its employees were eligible to work in the United States, which is also
required by the FAR.2

       E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from Form I-9, Employment Eligibility
Verification, with data from U.S. Government records. If the information matches, that
employee is eligible to work in the United States. If there is a mismatch, E-Verify alerts the
employer, and the employee is allowed to work while he or she resolves the problem within 8
days. The program is operated by the Department of Homeland Security in partnership with the
Social Security Administration.


1
    FAR 52.222-54(b)(1)(i), “Employment Eligibility Verification.” (January 2009)
2
    FAR 52.222-54(b)(1)(ii)-(b)(1)(iii).
                                                          2

                                                UNCLASSIFIED
                                             UNCLASSIFIED


         Ballenger representatives stated that they did not initiate verification of employment
eligibility of Ballenger employees within E-Verify because they were unaware of the
requirement. In addition, Ballenger had verified employee Social Security Numbers using the
Social Security Administration Web site and believed that the action was sufficient for
compliance.

        Also, Ballenger did not consistently obtain or maintain documented support for its
verification of employment eligibility. Specifically, 28 of the 82 files reviewed either were
missing or contained incomplete Forms I-9 to support employment eligibility. Ballenger
representatives cited the inability of human resource staffing to manage the required workload
for over 500 employees as the reason for the documentation being missing or incomplete. After
audit fieldwork was concluded, Ballenger provided documentation showing that 27 of the 28
employees without completed Forms I-9 were eligible for employment within the United States.
A Ballenger representative said that the undocumented worker chose not to contest his
employment eligibility status and left the job site voluntarily on February 28, 2011.

       Instructions for Form I-9 require all employees (citizen and noncitizens) hired after
November 6, 1986, and working in the United States to complete the form, and the employers
must retain the completed forms for 3 years after the date of hire or 1 year after the date
employment ends, whichever is later.

        In addition, Ballenger did not have a business ethics awareness and compliance program
or an internal control system, both of which are required by the FAR.3 Specifically, a contractor
is required to have, “within 30 days after contract award,” a “written code of business ethics and
conduct” and to make the code available to every employee working on the contract. The FAR4
also requires the contractor to “exercise due diligence to prevent and detect criminal conduct”
and to “otherwise promote an organizational culture that encourages ethical conduct and a
commitment to compliance with the law.”

        Ballenger managers stated that they were not aware of this requirement. Without
adequate controls in place, the contractor may not be able to identify potential areas of waste,
fraud, or abuse in its Federal contracting. In addition, employees may not understand their roles
in or identify methods for reporting suspected waste, fraud, or abuse.

         Finally, we could not determine whether Ballenger’s subcontractors performed any
actions to ensure compliance with affirmative action because Ballenger had no controls in place
to monitor such programs. The FAR5 requires contractors to take “affirmative action to ensure
equal employment opportunity” and further requires a contractor’s compliance to be “based upon
its effort to achieve maximum results from its actions.” The FAR6 also requires the efforts to be
“fully documented” and “affirmative action steps” to be implemented. The FAR7 further states

3
  FAR 52.203-13(b)(1)(i)-(b)(1)(ii), “Contractor Code of Business Ethics and Conduct.” (December 2008) 

4
  Ibid. (b)(2)(i)-(b)(2)(ii).

5
  FAR 52.222-27(g), “Affirmative Action Compliance Requirements for Construction.” (February 1999) 

6
  Ibid. 

7
  FAR 52-222-27(b). 

                                                       3

                                             UNCLASSIFIED
                                              UNCLASSIFIED


that “each such subcontract in excess of $10,000 shall include this clause.” Although Ballenger
requested documentation of efforts by subcontractors during our fieldwork, the subcontractors
did not provide evidence of any affirmative action plans or activities, and no process was in
place at Ballenger to ensure that subcontractors complied with the requirements.

           Recommendation 1. We recommend that the International Boundary and Water
           Commission contracting officer for IBWC Contract No. IBM10C0002 require that the
           contractor Ballenger Construction Company implement procedures to ensure that it and
           its subcontractors comply with Federal Acquisition Regulation requirements as they
           pertain to enrolling as a Federal contractor, ensuring employment eligibility, and ensuring
           equal employment opportunity.

           IBWC Response: IBWC concurred with the recommendation, stating that “[a]ll
           contractors required to [enroll in] E-Verify will be required to submit the evidence of
           registration by submitting the MOU [Memorandum of Understanding] or company
           profile page as provided by E-Verify within 30 days of contract award.” IBWC further
           stated that the contracting officer “will confirm” that this policy has been adopted by
           Ballenger Construction Company.

           OIG Analysis: Based on the response, OIG considers the recommendation resolved.
           The recommendation can be closed pending OIG’s review and acceptance of
           documentation showing IBWC’s proposed procedures and confirmation of actions taken
           by Ballenger Construction Company to comply with these procedures.

Finding B. Subcontractor Payment Process Was Ineffective
        The contractor Ballenger did not have effective controls in place to ensure that
subcontractor invoices were consistently received, processed, and paid in a timely manner and
that the required interest was paid for payments made after the required timeframe. The FAR 8
requires contractors to pay subcontractors for satisfactory performance not later than 7 days from
the receipt of payment by the contractor for work performed under the contract. The FAR 9
outlines the interest to be paid to the subcontractor for late payments beginning the 8th day after
payment has been received by the contractor until the date the subcontractor is paid at the
computed interest rate published in the Federal Register. Ballenger did not have procedures in
place to determine dates that invoices were received or when invoice payments were made, and it
did not calculate or pay required interest.

        Ballenger did not pay three of the 119 invoices reviewed in accordance with the FAR,
and no interest was paid. Ballenger owed the subcontractors $37.34 in interest payments on the
three late-paid invoices.



8
    FAR 52.232-27(c)(1), “Prompt Payment for Construction Contracts.” (October 2008)
9
    FAR 52.232-27(c)(2)(i)-(c)(2)(ii).
                                                        4

                                              UNCLASSIFIED
                                           UNCLASSIFIED


        Recommendation 2. We recommend that the International Boundary and Water
        Commission contracting officer for IBWC Contract No. IBM10C0002 ensure that the
        contractor Ballenger Construction Company establishes proper controls to pay its
        subcontractors in accordance with the required timeframe or pay interest for each day
        payment is late.

        IBWC Response: IBWC concurred with the recommendation, stating that it will require
        Ballenger Construction Company to establish controls “to pay its subcontractors in
        accordance with the required timeframe” or pay interest for late payments.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of IBWC’s
        documentation showing that Ballenger Construction Company has established controls to
        pay its subcontractors in accordance with the required timeframe or pay interest for late
        payments.

Finding C. Buy American Act Controls Were Not in Place
        The contractor Ballenger did not have policies and procedures in place to ensure that all
construction materials used on the construction project were produced in the United States. The
FAR10 defines “construction material” as “an article, material, or supply brought to the
construction site” by the contractor or subcontractor “for incorporation into the building or
work.” The FAR11 requires “unless an exception applies, that all iron, steel, and other
manufactured goods used as construction material in the project” be produced in the United
States for Recovery Act-funded projects. This clause also implements the Buy American Act12
by providing a preference for unmanufactured domestic construction material.

        Ballenger personnel stated that they were unaware of the requirements. Ballenger had
not purchased or invoiced any materials subject to Buy American Act requirements as of our
testing in November 2010.

        Without procedures, a contractor and/or a subcontractor could be in violation of the Buy
American Act, for which corrective actions can include removing and replacing the improperly
purchased foreign-manufactured goods, reducing the amount of the award, or even withholding
future funds.

        Recommendation 3. We recommend that the International Boundary and Water
        Commission contracting officer for IBWC Contract No. IBM10C0002 require that the
        contractor Ballenger Construction Company establish procedures to ensure that materials
        purchased for American Recovery and Reinvestment Act construction projects are in
        compliance with the Buy American Act.
10
   FAR 52.225-21(a), “Required Use of American Iron, Steel, and Other Manufactured Goods–Buy American Act–

Construction Materials.” (March 2009) 

11
   FAR 52.225-21(b)(1)(i)-(b)(1)(ii). 

12
   41 U.S.C. §§ 10a-10d.

                                                     5

                                           UNCLASSIFIED
                                           UNCLASSIFIED


          IBWC Response: In its response, IBWC stated that it “has been requiring contractors to
          comply with the Buy America Act.” It further stated that one requirement for contractors
          before they receive a Notice to Proceed from IBWC is for the contractor to identify a
          Quality Control Manager, who will implement the Buy America Act. Additionally,
          IBWC stated that it will continue to emphasize, at pre-construction conferences, that
          contractor and subcontractor-purchased material that is not in compliance with the Buy
          America Act “will not be paid for” by IBWC and “may need to be removed at
          contractor’s expense.” IBWC agreed to re-enforce these measures to contractors.

          OIG Analysis: Based on the response, OIG considers the recommendation closed.
          IBWC should follow up with Ballenger Construction to ensure that Ballenger is
          complying with the Buy American Act.

Finding D. Recovery Act Reporting Was Inaccurate and Incomplete
        The contractor Ballenger incorrectly calculated and reported the number of jobs created
and retained. Ballenger reported only jobs created instead of correctly reporting both jobs
created and retained. The FAR13 explains how to calculate this information. Ballenger’s
reporting figures were, however, incorrect because its officials stated that they did not
understand that aspect of the regulations.

         Also, Ballenger did not report the “Total federal amount ARRA funds received/invoiced”
for two of the four reporting periods and reported the “amount” after the deadline for submission
in one of the four quarterly reporting periods. The FAR14 outlines reporting requirements for the
amount of funds invoiced for the reporting period and states that deadlines for reporting are the
10th of the month following the reporting period. Ballenger personnel responsible for the
reporting in earlier quarters were no longer employed; therefore, the cause for the late and
inaccurate reporting could not be determined.

        Additionally, Ballenger did not submit correct and complete subcontractor information
on the Web site FederalReporting.gov for all four reporting periods. Contractors are required to
report specific information for “any first-tier subcontract funded in whole or in part under the
Recovery Act that is over $25,000.” The FAR15 outlines specific subcontractor information to be
reported, including subcontractor name, date, and amount of award. Specifically, Ballenger

     	   Incorrectly reported four companies as subcontractors with which Ballenger does not
          have subcontracts and that are not performing work on the contract in all four quarters.

     	   Improperly reported another four companies as subcontractors before subcontracts were
          in place or initial performance of subcontractor work was underway.


13
   FAR 52.204-11(d), “American Recovery and Reinvestment Act, Reporting Requirements.” (March 2009)

14
   FAR 52-204-11(c).

15
   FAR 52.204-11(d). 

                                                    6

                                           UNCLASSIFIED
                                             UNCLASSIFIED


       	    Failed to report three additional subcontractors that had valid subcontracts in place and
             subcontractor work underway in one or more quarters.

        As for the accuracy of reporting award data, Ballenger reported incorrect subcontract
award values for two of its subcontractors and reported incorrect subcontract award dates for
four of its subcontractors. Ballenger had entered subcontractor information in its initial reporting
quarter with planned subcontracting data and did not update the data with actual subcontracting
activity in Web site FederalReporting.gov in the next reporting periods.

        Finally, Ballenger did not determine whether subcontractors were required to report
compensation information for their five most highly compensated officers and therefore did not
report this information on FederalReporting.gov. The FAR16 requires the reporting of the names
and compensation of the subcontractor’s five most highly compensated officers if a
subcontractor’s revenues from Federal sources are at least $25 million or 80 percent or more of
its annual revenues. Ballenger personnel stated that they were unaware of the requirement.

      Without complete and accurate reporting, all contract information is not available to the
Government and to the public, thereby defeating one goal of the Recovery Act: transparency.

             Recommendation 4. We recommend that the International Boundary and Water
             Commission contracting officer for IBWC Contract No. IBM10C0002 require the
             contractor Ballenger Construction Company to ensure that its personnel are aware of
             FederalReporting.gov reporting requirements under its American Recovery and
             Reinvestment Act construction contract and prepare and submit required reports that are
             complete and accurate.

             IBWC Response: IBWC concurred with the recommendation, stating that it “will
             require” Ballenger Construction Company and other Recovery Act recipients to take
             online training concerning FederalReporting.gov reporting requirements.

             OIG Analysis: Based on the response, OIG considers the recommendation resolved.
             The recommendation can be closed pending OIG’s review and acceptance of
             documentation showing that IBWC has implemented requirements for Ballenger
             Construction Company and other Recovery Act recipients to take online training
             concerning FederalReporting.gov reporting requirements.




16
     Ibid.
                                                      7

                                             UNCLASSIFIED
                                      UNCLASSIFIED



                                List of Recommendations

Recommendation 1. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM10C0002 require that the contractor Ballenger
Construction Company implement procedures to ensure that it and its subcontractors comply
with Federal Acquisition Regulation requirements as they pertain to enrolling as a Federal
contractor, ensuring employment eligibility, and ensuring equal employment opportunity.

Recommendation 2. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM10C0002 ensure that the contractor Ballenger
Construction Company establishes proper controls to pay its subcontractors in accordance with
the required timeframe or pay interest for each day payment is late.

Recommendation 3. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM10C0002 require that the contractor Ballenger
Construction Company establish procedures to ensure that materials purchased for American
Recovery and Reinvestment Act construction projects are in compliance with the Buy American
Act.

Recommendation 4. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM10C0002 require the contractor Ballenger
Construction Company to ensure that its personnel are aware of FederalReporting.gov reporting
requirements under its American Recovery and Reinvestment Act construction contract and
prepare and submit required reports that are complete and accurate.




                                               8

                                      UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A

                                       Scope and Methodology
         The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this appendix), to conduct performance audits of
contractors that received American Recovery and Reinvestment Act (Recovery Act) funds from
the International Boundary and Water Commission (IBWC). One contractor selected for review
was Ballenger Construction Company, in Harlingen, Texas. The audit included Recovery Act
funds expended through September 30, 2010, with fieldwork conducted in November 2010.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on audit objectives.

        To meet our audit objectives, we used the following methodology:

        	 Reviewed documentation available on the Internet for Ballenger and its
           subcontractors to evaluate their eligibility to perform on Government contracts and
           validate the organization’s entity status.
         Selected and tested a sample of Recovery Act reports in FederalReporting.gov to
           determine whether information reported was accurate and supported.
         Determined whether Ballenger had processes in place that were established and
           functioning to ensure compliance with Buy American Act requirements.
        	 Selected and tested a sample of Ballenger- and subcontractor-certified payrolls to
           verify compliance with Davis- Bacon Act1 and Copeland Act2 requirements and to
           verify that processes were in place to validate employment eligibility of those
           individuals performing on the contract.
        	 Reviewed and evaluated subcontracts executed by Ballenger to ensure inclusion of
           proper clauses, receipt of debarment certifications, notification made to IBWC of
           active subcontracts, and timely payments.
        	 Evaluated whether Ballenger and its subcontractors had proper programs in place to
           ensure compliance with code of business ethics, equal opportunity, and affirmative
           action requirements.

       We discussed tentative results of this audit with Ballenger officials during fieldwork and
with IBWC officials on January 12, 2011.


1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor, on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation.

                                                       9

                                             UNCLASSIFIED
                                                         
                                        UNCLASSIFIED



Review of Internal Controls

         We reviewed Ballenger’s controls to ensure its own and subcontractor compliance with
contractual and regulatory requirements. We determined that Ballenger did not have appropriate
controls established to ensure compliance with contractual and regulatory requirements. It did
not have controls established to ensure that its subcontractors complied with Federal Acquisition
Regulation requirements as they pertain to paying subcontractors timely or ensuring employment
eligibility, and it did not have a corporate ethics program or internal control systems established.

       Also, Ballenger did not have controls established to ensure that subcontractors complied
with Equal Employment and Affirmative Action regulatory requirements, it had not implemented
controls to ensure that construction materials met Buy American Act requirements, and it did not
have appropriate controls established to submit accurate Recovery Act reports.

       Implementation of the recommendations contained in the report will improve controls for
ensuring compliance with required laws and regulations and for accurately reporting Recovery
Act spending to the public.
 
Use of Computer-Processed Data

         We used payroll files, job cost data, and other financial reports from Ballenger’s systems
to test the accuracy of its reporting in FederalReporting.gov information. We also validated
expenditures listed in IBWC’s budgetary and billing systems to ensure accuracy of reporting in
FederalReporting.gov. We found no unexplained discrepancies in the expenditure data reported,
but we did find inaccuracies in the data reported in FederalReporting.gov. We determined that
these errors were attributable, however, to Ballenger’s misunderstanding of reporting
requirements and were not caused by automated data system issues.
 
                               




                                                10

                                        UNCLASSIFIED
                                                   
                                                               UNCLASSIFIED



                                                                                                                    Appendix B

                                                                              
 

                                    INTLR'ATlO1\AL BOliNDARY AND WAIER CO~1~1 I SS I O:'\
                                               UNITED STATES A:'-<D "'EX 'CO

    11< 1 ," !+U ((""U 'I'"   M
      'In ,,1\11'     TIn,                                         May 6. 201 1



             United Stales Department of State and the Broadcasling Board of Governors
             Office of I nspector General
             Attn: Evelyn R. Klemsline, Assistant Inspector General for Audits
             2201 C. Street, N.W.
             Washington. D.C. 20520-0308



              Subject: OIG Audit of International Boundary and Water Commission Construction
              Contract with Ballenger Construction Company.

              Dear Ms. Klemstine:

              We arc pleased to provide you the attached responses to the findings and
              recommendations shown in the draft audit report entitled Audit of International Boundary
              and Water Commission Construction Contract with Ballenger Construction Company.
              using Funds provided by the American Recovery and Reinvestment Act Draft Report
              dated March 201 I.

              We note thai improvements have already been made in the USIBWC Acquisition
              Division in response to the recommendations provided in the audit report, and speci fi c
              responses to each finding and recommendation arc provided.


                                                                           Sincerely,




                                                                           Edward Drusina. P.E.
                                                                           Commissioner



              A nachmcnt as Stated
              cc:
              D. Forti
              C. Parker

                     Tho.! CnlllI1101h. BuilJlIlg C. Suit<! [00 • -1171 N. Me,a Street · El PiI\O. Tcx;J" 79902
                                  (1)[5)   1"02·-'100 · (FAX) (9151 H.1:!-4190 · hnp:I!\\\\\\.ibwr.: .... talc.gm
 
                                                                           11 


                                                               UNCLASSIFIED
                                                                              
                                         UNCLASSIFIED


 
 




    Thank you for the copy of your report dated April 20 11, we greatly appreciate the
    opportunity to re5JX)l1d to the report.

    The USIBWC generally agrees with all of the OIG recommendations, and each
    recommendation and suggestion that was noted in the report is addressed below:

    0 10 recommendations and USIBWC response:

        J. Recommendation J. We recommend that the VS IBWC contracting officer for
           IBWC Contract no. ffiMlOCOOO2 require that the contractor BaUenger
           COll5truction Company implement procedures to ensure that it and its
           subcontractors comply with FAR requirements as they pertain to enrolling as a
           Federal contractor, ensuring employment eligibi lity, and ensuring equal
           employment opportunity.

           Rcspome: Contract lBMIOCOOO2 contains clause 52.222-54 "Employment
           Eligibili ty Verification" which requires the contractor to enroll in the E-Verify
           program within 30 days of contract award. The E-Verify website does not
           implement web tools for Federal Agencies to assure contractor compliance. In
           fact. the onl), way to confirm registmtion of the company and its subs is to request
           from the contractor the MOV or compan), profile page provided by E-Verify to
           the conlr3Ctor. However, because of privacy laws. Federal Agencies cannot view
           or gauge the contractor's personnel request e(forts thm E-Verify. Therefore, all
           contractors required to E-Veriry will be required to submit the evidence of
           registration by submitting the MOU or company profile page as provided by E­
           Veri!).. 't'Ilthin]O days of contract award. The contracting officer for thi s contract
           will confino and reiterate with this contractor his obligation to enrolJ "ith E·
           Verify (as previously addressed in our pre-construclion conference) immed iately.

       2. Retommendalion 2. We recommend that the VSLBWC contracting officer fo r
          Contract IBM IOCOO02 ensure that the contmctor Ballenger Construction
          Company establishes proper controls to pay its subcontractors in accordance with
          the required time frame or pay interest for each day payment is late.

           Response: The contracting officer for IBM IOCOO02 will require the contractOr to
           submit a wrinen certification that it has established proper contro ls to pay its
           subcontractors in accordance with the required timeframe. In addition. the
           contractor shall certify that it has included in each sub:::ontract a ~yment clause
           thai obligates the contractor to pay the subcontractor for satisfactory performance
           under its subcontract not later than 7 days from rcc:eipt of payment out of such
           amounts as are paid to the contractor under this contract. In addition, thai the
           subcontnlcts contain an interest penalty clause that obligates the contractor to pay

                                                 2

                                                       
                                                     12 


                                         UNCLASSIFIED

                                                       
                                         UNCLASSIFIED


 


           to the su bconlJ'actor an interest penalty for each payment not made in accordance
           with the payment clause.

       3. Kecommendation 3. We recommend that the USII3 WC contracting onicer lo r
          IBM IOC(x)()2 require that the prime contractor establish procedures to ensure that
          materials purchllSCd for ARRA construction projccts comply with the [Juy
          American Act.

           Response: The US IBWC has been requiring contractors to comply with the Buy
           American Act. A pre-requirement to receiving a Notice to J1rocccd is submission
           of (l Quality Assurance Plan which identifies the contmctor's Quality Control
           Program Manager. The QC Manager is responsible for implementation of the
           [Juy American Act. Tha t respons ibility and ram ifications for non-compl iance is
           clearly addressed at each pre-construction conference. In tum, the contractor is
           made aware Ihal any materia] Ihal docs nol comply with the Buy-American Act
           wi ll not be paid for and may need to be removed at contractor's expense. To
           funher comply with the Act, the US IBWC Contracting Officer Re presentatives
           assigned to each project assure that prior to acceptance of any payment
           application the acceptability of the material furnished by the prime and its
           subcontmctors. Government personnel and contnlCted suppon service providers
           will rc-vcrify these actions to e mphasizc thc criticality of thi s action.

       4. Recommendation 4 : We recommend that the US IBWC contrncting officer for
          IBM IOCOOO2 require the prime conlmctor 10 ensure that its personnel are aware
          of FederalReponing.gov reporting requirements under its ARRA construction
          contract and submit required reports that are complete and accurate.

           Response:       TIle FederalRepOIting.gov website provides online lrallllng 10
           contractors w hich we agree may be underulilized by the prime and s ubcontractors
           alikc . The Commission wi ll reqllire AR RA recipients ccnify Ihal their ARRA
           reporting specialists have taken the seven (7) webinars this Irnining within 60
           days o f this response to audit.

    Thank yo u again for the opportun ity to respond 10 this droll repon and please advise us of
    any fol low-up questions, commenlS, or concerns about this response letter.

    You may reach Hugo White. Acquisitions Division Chief at 9 15-832-47 11 o r Christophe r
    Parke r. Internal Audit I'rogram Manage r at 9 15-832-4794 or via email at
    I lugo. White II ib\\c.go\' or Chrislophcr.Parkl!r II ib .... c.gO\ .




                                                 3



                                                     13 


                                         UNCLASSIFIED

                                                       
UNCLASSIFIED





UNCLASSIFIED

